No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, et al.,
Petitioners,
V.
CITY OF PHILADELPHIA, et al.,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
BRIEF OF REPUBLICAN LEGISLATORS, ELECTED
OFFICIALS, AND LEADERS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS
GREGORY FOSHEIM
BRIAN JONES
MICHAEL WEAVER
McDermott
Will & Emery LLP
444 W. Lake St.
Chicago, IL 60606
LISA GERSON
LISA LINSKY
SHU-PING SHEN
DMITRIY TISHYEVICH
McDermott
Will & Emery LLP
340 Madison Ave
New York, NY 10173

JAMES KIM
Counsel of Record
MICHAEL STANEK
McDermott
Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
jakim@mwe.com
ADRIANA FORTUNE
McDermott
Will & Emery LLP
200 Clarendon St.
Boston, MA 02116

Counsel for Amici Curiae

i
TABLE OF CONTENTS

Table of Authorities................................................... iii
Interest of the Amici Curiae and Summary
of Argument* ........................................................1
Argument .....................................................................2
I.
Allowing agencies to discriminate would not
be in the best interests of the children in the
city of Philadelphia’s care. ..................................3
A. Discrimination has a chilling effect on
finding potential foster parents. ................. 4
B. There are enough agencies that are
willing to serve all qualified parents. ......... 7
II. Having voluntarily entered into a taxpayerfunded government contract, CSS cannot
unilaterally exempt itself from specific terms. ..8
A. The City of Philadelphia is allowed to
meet its governmental obligation to care
for children by contracting with private
agencies in accordance with eligibility
standards established by Pennsylvania
law. ............................................................... 9
B. Principles of good governance require
governmental entities to treat its
constituents, including potential
contractors, impartially. ........................... 13
III. CSS should not be allowed to discriminate in
violation of the terms on which it obtains
public funds, and the exemption that
petitioners seek will undermine rather than
promote religious liberty. ..................................19
A. Because CSS takes public funds,
it should not be allowed to discriminate
in violation of the terms on which those
public funds are provided.......................... 19

ii
Petitioners’ argument undermines rather
than promotes religious liberty, by
allowing religious organizations to
discriminate against individuals on the
basis of their religion. ............................... 21
Conclusion .................................................................30
Appendix .................................................................... 1a
B.

iii
TABLE OF AUTHORITIES

Cases
Agency for Int’l Development v. Alliance for
Open Society Int’l, Inc.,
570 U.S. 205 (2013) .................................. 19, 23, 24
Building Owners and Managers Ass’n of
Pittsburgh v. City of Pittsburgh,
603 Pa. 506 (2009) ................................................ 12
Chepkevich v. Hidden Valley Resort, L.P.,
607 Pa. 1 (2010) .................................................... 12
Christian Legal Soc’y v. Martinez,
561 U.S. 661 (2010) .............................................. 24
Employment Division v. Smith,
494 U.S. 872 (1990) ........................................ 18, 27
Espinoza v. Montana Dep’t Rev.,
140 S. Ct. 2246 (2020) ................................ 9, 10, 28
Everson v. Board of Ed. of Ewing,
330 U.S. 1 (1947) .................................................. 28
Hernandez v. Commissioner,
490 U.S. 680 (1989) .............................................. 27
Maddonna v. United States Dept. of Health and
Human Services, et al.,
No. 6:19-cv-3551 (D. S.C. Aug. 10, 2020) ............ 26
McDaniel v. Paty,
435 U.S. 618 (1978) ........................................ 22, 29
Mitchell v. Helms,
530 U.S. 793 (2000) ........................................ 22, 27
NE Fla. Chapter of the Associated Gen.
Contractors v. City of Jacksonville,
508 U.S. 656 (1993) .............................................. 20
New Hope Family Services v. Poole,
966 F.3d 145 (2d Cir. 2020) ................................. 12

iv
Cases—continued
Norwood v. Harrison,
413 U.S. 455 (1973) .............................................. 24
Regan v. Taxation With Representation of Wash.,
461 U.S. 540 (1983) .............................................. 23
Rogers v. United States Dep’t of Health and
Human Servs.,
No. 6:19-cv-01567-TMC (D. S.C. May 8, 2020) .... 6
Rust v. Sullivan,
500 U.S. 173 (1991) .............................................. 19
Sharonell Fulton, et al. v. City of Philadelphia,
et al.,
No. 18-2574 (3d Cir. Oct. 4, 2018) ......................... 7
Sturges v. Crowninshield,
17 U.S. 122 (1819) ................................................ 13
Sun Oil Co. v. Traylor,
407 Pa. 237 (1962) ................................................ 13
Trinity Lutheran Church of Columbia, Inc.
v. Comer,
137 S. Ct. 2012 (2017) ................................ 9, 22, 29
United States v. Windsor,
570 U.S. 744 (2013) .............................................. 21
Statutes, Codes, and Regulations
15 C.F.R. § 8.5 ........................................................... 11
41 C.F.R.
§ 60-1.4 ................................................................. 11
§ 60.1.5.................................................................. 11
23 Pa. C.S.
§ 6344(d) ................................................................. 8
§ 6373...................................................................... 8
16 Pa. Code § 49.101 ................................................. 11

v
Statutes, Codes, and Regulations—continued
55 Pa. Code § 3700.64 ................................................. 8
Howard M. Metzenbaum Multiethnic
Placement Act (MEPA) .......................................... 5
Other Authorities
Adoptions in America are declining: Meanwhile,
more children need foster care, The Economist
(June 24, 2017) ....................................................... 4
Benjamin Hardy, One faith-based group
recruits almost half of foster homes
in Arkansas, Arkansas Times
(December 1, 2017) .............................................. 20
Black’s Law Dictionary 342 (8th Ed. 2004) .............. 12
Foster Care Inquiry Form: Agreement with
Doctrinal Statement, Miracle Hill Ministries ..... 26
HHS, Office of the Assistant Secretary for
Planning and Evaluation, Evolving Roles of
Public and Private Agencies in Privatized
Child Welfare Systems (Mar. 1, 2008) ................... 6
H.R. 3448 Conference Report (1996) .......................... 5
Jonathan Levin & Steven Tadelis, Contracting for
Government Services: Theory and Evidence
from U.S. Cities, 58 J. Indus. Econ. 507 (2010) .. 16
Michael Johnston, Good Governance: Rule of
Law, Transparency, and Accountability,
UNESCO’s International Institute for
Educational Planning (2002) ............................... 14
Pa. Exec. Order No. 2016-05 ..................................... 11

vi
Other Authorities—continued
Samantha R. Lyew, Adoption and Foster Care
Placement Policies: Legislatively Promoting
the Best Interest of Children Amidst
Competing Interests of Religious Freedom
and Equal Protection for Same-Sex Couples,
42 J. Legis. 186 (2016) ......................................... 20
Supreme Court Rule 37.3(a) ....................................... 1
Supreme Court Rule 37.6 ............................................ 1
Thomas M. Franck, Democracy, Legitimacy and
the Rule of Law: Linkages, N.Y. Univ. Sch. L,
Public Law and Legal Theory Working Paper
Series, Working Paper 2 (1999) ........................... 14
United Nations Economic and Social Commission
for Asia and the Pacific,
What is Good Governance? .................................. 14
U.S. Health and Human Services, Office for Civil
Rights, Memorandum from Director re:
Interethnic Adoption Provisions of the Small
Business Job Protection Act of 1996
(June 4, 1997) ......................................................... 5

1
INTEREST OF THE AMICI CURIAE
AND SUMMARY OF ARGUMENT *
1

The issues raised in this dispute are deeply important to amici curiae, who are current and former
Republican legislators and elected officials, as well as
Republican leaders. Amici also include Conservatives
Against Discrimination, which is a coalition of conservative Americans who believe LGBTQ Americans
should be free from discrimination. A list of the individual amici and their official positions is appended to
this brief.
Amici are profoundly committed to religious freedom, but amici do not support the provision of religious
exemptions to faith-based agencies when those agencies are providing child welfare services under a taxpayer-funded government contract. Many of the amici
state legislators voted against legislation that would
have provided a religious exemption to nondiscrimination requirements to child welfare agencies similar to
those at issue here. Amici believe such exemptions
would open a Pandora’s Box of problems and the purported fix would only create future problems for this
Court to address.
While not all of the amici share all of the concerns
raised in this brief, amici file this brief to emphasize
their shared view that the exemption from the contractual nondiscrimination obligation that Petitioners seek
should not be granted. Discrimination, in any form,
threatens to undermine basic principles of this nation.
*1 This brief is submitted with the written consent of all parties
pursuant to Supreme Court Rule 37.3(a). No counsel for a party
authored this brief in whole or part, and no party other than amici
or their counsel made a monetary contribution to the preparation
or submission of the brief. See Supreme Court Rule 37.6.

2
Amici in particular share concerns about discrimination against religious entities and individuals. But
when an organization, including a religious institution,
voluntarily contracts with the government to provide a
government service, it is not discriminatory to require
the organization to comply with contractual terms
equally required by the government of all contractors
within the scope of the funded activity.
ARGUMENT

Amici strongly support religious freedom. But this
case does not involve government restrictions on religious belief, government intrusion into religious practice, or government suppression of religious speech.
Rather, it is about whether those paid by the government to assist the government in fulfilling its obligations to care for children in the government’s custody
can refuse to comply with generally applicable terms of
the government contract they voluntarily entered,
when those terms exist to maximize the pool of available foster parents and to prevent taxpayer funded discrimination in the delivery of government services.
This brief highlights three reasons amici believe those
who choose to enter such government contracts should
not be able to refuse to comply with those contracts’
terms.
The first relates to the specific context of this case:
providing optimal care for the children who have been
removed from their families’ homes and placed in government custody for their safety and protection until
they can be safely reunited with their families or
adopted into a loving home. In this case, the City of
Philadelphia (“City”) decided to meet its obligation to
care for the children in its custody by contracting with
private agencies to assist it in performing the government function of finding appropriate, temporary homes

3
for these children and affording tools to foster parents
to provide an environment where these children can
thrive.
Amici are concerned that, if the Court were to
mandate that the City allow those it contracts with to
provide public child welfare services to discriminate in
violation of those contracts, the pool of available foster
parents will be reduced and children will be left to languish in group care settings—in violation of the City’s
paramount obligation to act in the best interests of
those children.
Second, amici worry about the burden on and costs
of government administration of contracts if religious
exemptions to various terms were to be required.
Third, amici oppose taxpayer funds being used to
support discrimination against constituents paying
those taxes and are concerned that requiring the government to allow discrimination that is religiously motivated could result in government-supported discrimination by religious entities against members of other
religions or no religion.
These reasons for rejecting the claimed right to
discriminate in violation of the generally applicable
terms of the contract are discussed below.
I.

ALLOWING AGENCIES TO DISCRIMINATE
WOULD NOT BE IN THE BEST INTERESTS OF
THE
CHILDREN
IN
THE
CITY
OF
PHILADELPHIA’S CARE.

All parties, as well as numerous amici, understand
that there is a need for more foster families to care for
children who cannot safely remain in their families’
care. Pet. Br. at 12 (noting the “chronic shortage of
foster homes” in the City). Given this unfortunate reality, in order to act in the best interests of these chil-

4
dren, it is imperative that the pool of qualified foster
parents is not needlessly shrunken. The rule Petitioners ask the Court to adopt is contrary to that goal, because allowing agencies to discriminate against otherwise qualified same-sex parents (or other families that
do not meet an agency’s religious standards) would reduce the number of parents available to children in
need of placement. Moreover, losing the services of an
agency that believes it cannot abide by the City’s nondiscrimination policy will not have a detrimental effect
on child placements.
A. Discrimination has a chilling effect on
finding potential foster parents.

The foster-parent pool is already too small, and actions that compound or exacerbate this problem should
be avoided. In 2017, The Economist reported that
“around 80% of those who try to foster a child give up
within two years.” 1 The reason given: “[T]he reluctance of prospective parents to deal with the often
needlessly bureaucratic public foster agencies.” 2 If
those agencies may refuse to certify otherwise qualified
parents due to their status as a same-sex couple, samesex couples seeking to become foster parents would
face not only those bureaucratic challenges, but also
the very real prospect of discrimination based on their
identity. Forcing prospective same-sex parents to undergo such discrimination may deter same-sex couples
from even seeking to become a foster family. This

Adoptions in America are declining: Meanwhile, more children
need foster care, The Economist (June 24, 2017), available at
https://perma.cc/DV36-KXXD.
1

2

Ibid.

5
would reduce the pool of potential foster parents, and
ultimately harm the children in the foster care system.
Congress previously recognized the potential detrimental effect of discrimination on the timely placement of adoptive and foster children. In 1994, Congress passed the Howard M. Metzenbaum Multiethnic
Placement Act (“MEPA”). Section 553 of MEPA allowed “race matching” of foster and adoptive parents
with children. 3 Just two years later, however, Congress passed a bill, sponsored by Texas Congressman
Bill Archer, to repeal Section 553 (H.R. 3448). The new
law was signed by President Clinton on August 20,
1996. Section 1808 of the Act, entitled “Removal of
Barriers to Interethnic Adoption,” “affirms and
strengthens the prohibition against discrimination in
adoption or foster care placements,” and clarified Congress’ “intent to completely eliminate delays in
placement where they were in any way avoidable.” 4 Accordingly, under these federal laws, “[r]ace,
culture or ethnicity may not be used as the basis for
any denial of placement, nor may such factors be used
as a reason to delay any foster or adoptive placement.” 5
The same rationale applies to discrimination
against same-sex couples seeking to become foster parents. Where the intent is to “completely eliminate de3

H.R. 3448 Conference Report (1996).

U.S. Health and Human Services, Office for Civil Rights, Memorandum from Director re: Interethnic Adoption Provisions of the
Small Business Job Protection Act of 1996 (June 4, 1997), available at https://www.hhs.gov/civil-rights/for-individuals/specialtopics/adoption/interethnic-adoption-provisions/index.html (emphasis added).
4

5

Ibid.

6
lays in placement where they [are] in any way avoidable,” sexual orientation discrimination against prospective foster parents—like any discrimination—is anathema to that intent. And, given a system already hindered by bureaucracy and delays, the knowledge by a
same-sex couple that they also could face discrimination has the potential to deter many even from applying. Put differently, when considering whether to apply to be foster parents, same-sex couples aware that
their substantial effort to complete the foster application process could, in one stroke, be wiped out by discrimination against same-sex couples, may be less likely to start the process in the first place. 6
In some state systems other than Pennsylvania’s,
the state may assign children to a particular contracted agency, and the agency makes the foster placement
for that assigned child. 7 In those types of systems,
once a child has been assigned to an agency, that child
may lose access to otherwise qualified parents, if the
assigned agency is one that is allowed to discriminate
As discussed in Section III.B, this problem is compounded by
other forms of discrimination prospective parents may face. That
is, prospective same-sex foster parents may be even less willing to
start the application process if they know that they will face not
only sexual orientation discrimination, but perhaps also discrimination based on their religion. See, e.g., Rogers v. United States
Dep’t of Health and Human Servs., No. 6:19-cv-01567-TMC, Dkt.
81 (D. S.C. May 8, 2020) (addressing claims of discrimination by
prospective foster parents who were rejected because they were a
same-sex couple and practiced a religion other than the evangelical Protestant Christian faith).
6

See HHS, Office of the Assistant Secretary for Planning and
Evaluation, Evolving Roles of Public and Private Agencies in Privatized Child Welfare Systems (Mar. 1, 2008), available at
https://aspe.hhs.gov/basic-report/evolving-roles-public-andprivate-agencies-privatized-child-welfare-systems.
7

7
against same-sex couples or other parents due to the
agency’s firmly held religious beliefs. Those agencies
cannot serve the best interests of the children because
the agencies would turn away qualified couples for reasons that have nothing to do with their fitness as a foster parent. Accordingly, in states where children are
assigned to a particular agency for placement, an agency that is allowed to discriminate would not be acting
in the best interests of the children assigned to them.
B. There are enough agencies that are willing to
serve all qualified parents.

Petitioners suggest that children will suffer if CSS
is not permitted to enter into a contract with the City
of Philadelphia that allows Catholic Social Services
(“CSS”) to discriminate. Pet. Br. at 12. But CSS is not
Philadelphia’s only foster care agency for child placements, and, while Philadelphia would have preferred
that CSS continue to provide services to all so that
Philadelphia could continue to contract for child
placement services with it, losing CSS—or any other
agency that is unwilling to abide by Philadelphia’s nondiscrimination policy—would not have an adverse effect on the children’s access to qualified foster families.
As the district court found, “the closure of CSS’s intake
of new referrals has had little or no effect on the operation of Philadelphia’s foster care system.” Pet. App.
128a. This is consistent with the experience of numerous other States, where a placement agency stopped
providing government-contracted foster care services,
other agencies filled the gap. See Brief of Massachusetts, et al. as Amici Curiae in Support of Philadelphia
at 24, Sharonell Fulton, et al. v. City of Philadelphia, et
al., No. 18-2574 (3d Cir. Oct. 4, 2018), ECF No.
003113052217. Given that other contracted agencies
can fill CSS’ role if CSS believes it cannot abide by

8
Philadelphia’s non-discrimination policy, child placements will not suffer. Indeed, the “dozen families
ready to provide foster care” through CSS’ placement
that Petitioners refer to in their brief could be served
by any of the other contracted agencies. There is no
reason why any prospective parents, including those
who are awaiting placements through CSS, may not
“transfer to other agencies and continue using their
skills to provide foster care to children.” Pet. App.
128a. CSS’ unwillingness to contract with Philadelphia on the terms applicable to all other agencies would
not adversely affect children’s access to qualified foster
families.
II. HAVING VOLUNTARILY ENTERED INTO A
TAXPAYER-FUNDED
GOVERNMENT
CONTRACT, CSS CANNOT UNILATERALLY
EXEMPT ITSELF FROM SPECIFIC TERMS.

The City and County of Philadelphia, as with all
counties of the Commonwealth of Pennsylvania, owe a
duty to provide child protective services to children and
youth in their jurisdictions through the formation of
county agencies. 23 Pa. C.S. § 6373. As has been set
forth in the record, the Philadelphia Department of
Human Services (DHS) has chosen to meet its municipal obligation by contracting with private agencies to
assist it in recruiting, screening, training and certifying foster families in accordance with eligibility standards established by Pennsylvania law. See 23 Pa. C.S.
§ 6344(d); 55 Pa. Code § 3700.64.

9
A. The City of Philadelphia is allowed to meet
its governmental obligation to care for
children by contracting with private agencies
in accordance with eligibility standards
established by Pennsylvania law.

CSS chose to enter into an agreement with the City
voluntarily. Governmental entities are entitled to set
the terms of their contracts so long as contractual
standards are generally applicable and applied neutrally in a way that does not “impose special disabilities on the basis of religious status.” 8 See, e.g., Espinoza v. Montana Dep’t Rev., 140 S. Ct. 2246, 2254
(2020) (quoting Trinity Lutheran Church of Columbia,
Inc. v. Comer, 137 S. Ct. 2012, 2021 (2017)). Upon executing the contract with Philadelphia, CSS was obligated to abide by all of the contract’s terms, which
were religiously neutral and of which CSS was aware
when it executed the contract. See Pet. App. 59a, 86a
(“Article XV incorporates provisions of the Philadelphia
Fair Practices Ordinance relating to nondiscrimination and serving all-comers who might seek
services from CSS”); (“Article XV, § 15.1 of the Services
Contract makes no reference to religion except that §
15.1 would protect individuals receiving services under
the Services Contract from religious discrimination * *
* [and] the legislative history and intent of the Fair
Importantly, Philadelphia has not imposed a special disability
upon religious organizations by way of its contract. Bethany
Christian Services (BCS), a religious foster care agency, articulated a similar objection as that voiced by Petitioners. It ultimately
agreed to comply with the City’s nondiscrimination provision and
not to exclude same-sex couples from certification on that ground.
As a result, BCS remains a contractor for the City to this day, and
it certifies all qualified families who meet the Pennsylvania legislature’s certification criteria.
8

10
Practices Ordinance similarly supports a finding of
neutrality.”).
The Philadelphia DHS contract is as similar to the
Montana scholarship program recently evaluated by
this Court in Espinoza as apples are to fried chicken.
In Espinoza, the Montana legislature allotted $3 million annually to fund tax credits to any taxpayer who
donated to a student scholarship program, and that
program then used the funds to award tuition to children for use at private schools. The Montana legislature prohibited the scholarships from going towards tuition at sectarian schools. Espinoza, 140 S. Ct. at 2252.
Although Montana owes educational services to its minor residents similar to Pennsylvania owing child protective services to its minor residents, that is where the
similarities cease. The Espinoza case did not involve
contracts to provide services on behalf of the government. And unlike the situation in Espinoza, nowhere
in the Philadelphia DHS contract is the municipal entity treating contractors with religious affiliations differently from those with secular backgrounds. If a contractor wants to support Philadelphia’s obligation to
resident children, it can enter into an agreement to do
so. If it does not want to, it can pass and seek to serve
children in other ways, and another contractor will
step in to provide the exact same services in accordance with Philadelphia’s legislatively mandated evaluation criteria. By contrast, if the parents of a Montana
child wanted her to attend a religious elementary
school, obtained a scholarship for her for such purpose,
but were prohibited from using the funds at the school
of their choice, the family is injured, even if the child
could find as good or better education elsewhere. It is
not the school that is choosing to accept or reject her; it
is the state that is undermining the family’s choice and

11
imposing a special disability on the family because of
the family’s religious status.
Because the government cannot discriminate on
invidious grounds against those to whom it provides its
services, non-discrimination provisions have become
commonplace as a way to ensure neutrality in the delivery of those services. Federal government contracts
obligate contractors not to discriminate against any
employee or applicant for employment because of race,
color, religion, sex, sexual orientation, gender identity,
or national origin (with the limited exemption of allowing religious entities to prefer employees of their own
religion). See 41 C.F.R. §§ 60-1.4 – 60.1.5; see also 15
C.F.R. § 8.5 (applicable to federal grants, loans or contracts pursuant to Title VI of the Civil Rights Act of
1964, and not providing for any religious exemption).
Non-discrimination provisions are also a routine
inclusion in contracts with the Commonwealth of
Pennsylvania. See 16 Pa. Code § 49.101 (requiring
contractors and subcontractors to have employment
nondiscrimination policies because of race, color, creed,
national origin, ancestry, sex or age as a condition of
entering into contracts with the Commonwealth of
Pennsylvania); Pa. Exec. Order No. 2016-05 (Apr. 6,
2016, amended June 18, 2018) (designating the Department of General Services as the agency responsible
for ensuring nondiscrimination on the basis of “race,
gender, creed, color, sexual orientation, gender identity
or expression, or participation or decision to refrain
from participation in protected labor activities does not
exist with respect to the award, selection, or performance of any contracts or grants issued by Commonwealth agencies”). Within this framework, Philadelphia’s practice of including non-discrimination language
in its contracts should not raise any curiosity. After

12
all, the ability to ensure that local services are not provided in a discriminatory way is a widely accepted
principle of a municipality’s police powers. See, e.g.,
Building Owners and Managers Ass’n of Pittsburgh v.
City of Pittsburgh, 603 Pa. 506, 512 n.12 (2009) (observing that Pennsylvania municipalities have authority to enact anti-discrimination laws).
When a governmental entity is involved in contract
negotiations, any flexibility may be limited to the edges
of the agreement, such as total funds allocated, timing,
or method of performance, but this does not make it an
unenforceable contract of adhesion. Both parties retain bargaining power. If they cannot agree on material terms, either party can walk away, and the government can enter into a contract with another contractor
for the same services. See, e.g., Chepkevich v. Hidden
Valley Resort, L.P., 607 Pa. 1, 27 (2010) (“An adhesion
contract is a ‘standard-form contract prepared by one
party, to be signed by the party in a weaker position,
usu[ally] a consumer, who adheres to the contract with
little choice about the terms.’”) (quoting Black’s Law
Dictionary 342 (8th Ed. 2004)). CSS is not being compelled to enter into the contract or to adopt any particular position. Rather, CSS is merely standing in the
place of Philadelphia and performing a government
service on behalf of the City by applying evaluation criteria developed by the Pennsylvania legislature. See
New Hope Family Services v. Poole, 966 F.3d 145, 164
(2d Cir. 2020) (“[T]he relationship between CSS and
Philadelphia was contractual and compensatory. By
contrast, while New Hope is authorized by New York to
provide adoption services, it does not do so pursuant to
any government contract, nor does it receive any government funding.”) (citation omitted). If Petitioners
believe that CSS’ religious tenets preclude CSS from
complying with the agreement’s terms, CSS’ recourse

13
is not to enter into the contract. CSS will remain free
to express its beliefs and serve children in other
ways—as it continues to do in other capacities with the
City—that CSS can perform without engaging in contractually prohibited discrimination.
It is a cardinal principle of contract law that a contract is a written manifestation of the parties’ intent to
be bound to the terms therein. Sturges v. Crowninshield, 17 U.S. 122, 197 (1819) (“A contract is an
agreement, in which a party undertakes to do, or not to
do, a particular thing. The law binds him to perform
his undertaking, and this is, of course, the obligation of
his contract.”). As conservatives, amici believe that the
obligations of contracts should be respected. Allowing
a party to pick and choose the provisions with which it
will comply after the contract has been signed, absent
an agreed-upon modification of the underlying contract, undercuts these fundamental principles, particularly when the contract is entered into by sophisticated
parties. Sun Oil Co. v. Traylor, 407 Pa. 237, 243 (1962)
(“If this change of horses in the middle of the stream of
contractual obligations were to be permitted, simply
because one of the parties was dissatisfied with what
he had agreed to do, very few contracts would reach
the other side of the stream dry and staunch enough to
carry on with the rest of the legal journey.”). Although
the Sun Oil matter involved the sale of property, essential governmental services are no less in need of
predictability than is the sale of commercial realty.
B. Principles of good governance require
governmental
entities
to
treat
its
constituents, including potential contractors,
impartially.

As a general principle of good government, government entities must treat their constituents equal-

14
ly. 9 Therefore, government entities that engage contractors must treat those contractors with impartiality
and, in turn, may require those contractors to follow
the same anti-discrimination laws or policies by which
the government itself would have to abide if the government were delivering the services itself.
Moreover, allowing a private agency to honor only
the terms of a contract that the agency does not deem
to be in violation of the agency’s religious beliefs would
likely result in greater government costs ultimately
borne by taxpayers and the necessity of bigger government. If government entities are required to afford
religious exemptions claimed by private contractors,
there would likely be considerable administrative burdens with regards to maintaining and enforcing those
contracts. Or, conversely, to ensure that its constituents are treated equally, government entities would
likely have to deliver services itself, thereby reducing
the number of public-private partnerships, while sim“Good governance” does not have a singular meaning, although
in the international law context, “almost everyone knows, or could
know, the essential elements of good governance.” Thomas M.
Franck, Democracy, Legitimacy and the Rule of Law: Linkages 16,
N.Y. Univ. Sch. L, Public Law and Legal Theory Working Paper
Series, Working Paper 2 (1999), available at http://papers.
ssrn.com/paper.taf?abstract_id=201054. It has been defined as
“legitimate, accountable, and effective ways of obtaining and using
public power and resources in the pursuit of widely-accepted social
goals.” Michael Johnston, Good Governance: Rule of Law, Transparency, and Accountability 2, UNESCO’s International Institute
for Educational Planning (2002), available at https://etico.iiep.
unesco.org/sites/default/files/ unpan010193.pdf. The United Nations includes among its major characteristics “equity and inclusiveness” and “effectiveness and efficiency.” United Nations Economic and Social Commission for Asia and the Pacific, What is
Good Governance?, available at https://www.unescap.org
/sites/default/files/good-governance.pdf.

9

15
ultaneously increasing the size and costs of government and a corresponding increase in taxes. Furthermore, allowing Petitioners to prevail in the instant
case would set a precedent allowing all private entities
with a religious affiliation to require government entities to recognize and allow for any religious exception
to any contractual term.
1. Allowing contractors to dictate which
terms of an otherwise standard
contract are applicable to that
contractor would impose a substantial
administrative burden on government
entities and, by extension, would likely
impose a greater tax burden on
taxpayers.
If private entities demand that certain terms of a
contract be held inapplicable to them, government
costs would certainly increase. At the outset, a template or standard contract would probably never be
used as is, given the likelihood that other religiousbased entities might claim religious exemptions to different terms of that same contract. The inability to use
a template contract would initially require increased
legal fees for the drafting and review of those contracts
that would likely be different for each potential contractor. In addition to the added costs to the government for legal review, the management and recordkeeping of those contracts could balloon into an unwieldy bureaucracy. Instead of a standard contract,
government entities would have to maintain records as
to which contractors have claimed exceptions and how
those exceptions were claimed and justified. An increase in the administrative oversight required to
manage an overburdened contract system could result
in staffing shortages and a need to hire additional per-

16
sonnel in order to carry out this recordkeeping. Along
with the increased administrative workload and its
cost, permitting a variety of contracts also creates the
potential for confusion and error among government
employees who would no longer have the ability to rely
on a template contract.
Should there be future changes in law or policy,
template agreements provide a more efficient base
from which to make amendments reflecting those
changes. If private entities are permitted to demand
exceptions, contracts become variable and open to negotiation each and every time a party is engaged. This
would undoubtedly result in greater delays before necessary governmental services are made available to the
public, and money that would otherwise be directed to
serving the government’s constituents would have to be
directed toward legal and administrative costs as well
as to other contractors willing to provide the requisite
services.
With the added burden of managing various contracts with differing terms, government entities might
choose, instead, to avoid the administrative hassle of
contracting out these services. See Jonathan Levin &
Steven Tadelis, Contracting for Government Services:
Theory and Evidence from U.S. Cities, 58 J. Indus.
Econ. 507, 535 (2010) (concluding in an analysis of government contracting in U.S. cities that “contracting difficulties” such as the need to monitor contract performance or the need for flexibility and “high transaction
costs of contracting” generally result in less use of private entities). Doing so would necessitate additional
employees, leading to bloated government and a reduction in public-private partnerships. Governmental
partnerships with private entities should help govern-

17
ments run with greater efficiency rather than further
burden the government.
Whether a government entity chooses to take on
the task of handling a more complex contract system or
chooses to no longer contract out certain services, either option is in conflict with the governmental goal of
running efficiently to meet the needs of its constituents, while simultaneously availing itself of the resources available to it (including by contracting with
private entities). In either case, there will almost certainly be a need for greater staff and greater action by
the government. Not only does the increased cost to
the government potentially limit the services that it
can provide, increased government cost creates fiscal
implications for the citizenry. A greater cost to the
government, whether to manage contracts or to cease
contracting in order to provide certain services itself,
would, in all likelihood, impose a greater tax burden on
the government’s constituents.
2. If Petitioners were to prevail, other
contractors would have precedent to
exempt themselves from the terms of
contracts with governmental entities
that could put them at an advantage
over competing contractors.
If CSS is permitted to exempt itself from specific
terms of a contract with the City of Philadelphia, this
case would set a precedent allowing private entities to
regularly demand exemption from certain contract
terms based on their religious beliefs. Not only would
this result in different contractors being treated
differently by a government entity and lead to the
increased cost to government, it also would permit
private entities to claim religious exemptions that
would allow them the advantage of not having to

18
provide the full range of services that a non-religiously
associated organization would be required to provide.
If CSS is permitted to exempt itself from Philadelphia’s
requirement that an agency vetting potential foster
parents not discriminate against same-sex couples, it
relieves itself of a service that other contractors must
perform. There would not appear to be any limiting
principle that would keep other organizations from
claiming religious exemptions. Allowing Petitioners to
prevail would permit a contractor affiliated with a
religion that observes the Biblical Sabbath to refuse to
provide services once a week when the contract
requires services to be provided seven days a week, and
while other organizations would be expected to provide
services on all seven days. Or a contractor founded on
Christian Science principles providing foster services
for children could refuse to take sick children in its
care to health care providers or to be vaccinated.
Permitting organizations to claim religious
exemptions from their government contracts as
Petitioners are trying to do risks the “anarchy” Justice
Scalia described in Employment Division v. Smith, 494
U.S. 872 (1990). In Smith, respondents took the
position that “governmental actions that substantially
burden a religious practice” could be valid only in light
of a “compelling government interest.” Id. at 883, 885.
However, Justice Scalia warned “[a]ny society adopting
such a system would be courting anarchy, but that
danger increases in direct proportion to the society’s
diversity of religious beliefs.” Id. at 888. That warning
is certainly still applicable in the instant case.
Allowing any religiously affiliated private entity to
claim religious exemptions could prove untenable,
forcing governmental entities to abandon such
partnerships.

19
III. CSS SHOULD NOT BE ALLOWED TO
DISCRIMINATE IN VIOLATION OF THE TERMS
ON WHICH IT OBTAINS PUBLIC FUNDS, AND
THE EXEMPTION THAT PETITIONERS SEEK
WILL UNDERMINE RATHER THAN PROMOTE
RELIGIOUS LIBERTY.
A. Because CSS takes public funds, it should
not be allowed to discriminate in violation
of the terms on which those public funds
are provided.

Under the Court’s teachings, the City of Philadelphia cannot compel CSS to adopt its views on same-sex
marriage. See Agency for Int’l Development v. Alliance
for Open Society Int’l, Inc., 570 U.S. 205, 218-221
(2013). The City also could not have refused to contract
with CSS due to its religious views. See ibid. However,
the City may fund contracts that comport with its own
views on matters. See Rust v. Sullivan, 500 U.S. 173,
201 (1991) (upholding conditions on government grants
under Title X that prevent the provision of abortion
services and counseling about abortion).
Refusal by CSS to accept same-sex couples for
screening makes it more difficult for those couples to
obtain a government benefit than for equally situated
different-sex couples. It does not matter that there may
be other foster care agencies that do not share CSS’
views: when the government erects a barrier making it
more difficult for members of one group to obtain a
benefit than for members of another group, there is injury to the affected party. See, e.g., NE Fla. Chapter of
the Associated Gen. Contractors v. City of Jacksonville,
508 U.S. 656, 666 (1993). The ruling Petitioners seek—
that a contracting entity can cherry pick which parts of
government contracts it wants to follow, or not follow,
based on its religious beliefs—has no logical stopping

20
point. In some jurisdictions across the country that
have delegated foster care placements to private agencies, a significant percentage of those agencies are religious entities. 10 If the Court holds that such entities
can deny foster care placement services to same-sex
couples, that ruling would reduce those couples’ ability
to become foster parents, and it may shut them out
from foster care altogether in some areas.
To allow a private entity to engage in such behavior would result in the incongruous outcome of the tax
dollars of certain constituents funding that entity to
engage in behavior discriminatory against those constituents. It hardly seems an appropriate result, for
example, for a same-sex couple to pay taxes that the
City of Philadelphia ultimately uses to pay CSS to carry out a service that CSS will not provide to the samesex couple. Principles of good government require that
a governmental entity ensures that its constituents are
treated equally. 11

See, e.g., Samantha R. Lyew, Adoption and Foster Care Placement Policies: Legislatively Promoting the Best Interest of Children
Amidst Competing Interests of Religious Freedom and Equal Protection for Same-Sex Couples, 42 J. Legis. 186, 199 (2016) (noting
two faith-based Michigan agencies facilitate 25-30% of the state’s
foster care placements); Benjamin Hardy, One faith-based group
recruits almost half of foster homes in Arkansas, Arkansas Times
(December 1, 2017) (finding religious group operates in forty-four
counties in Arkansas with plans for expansion), available at
https://arktimes.com/news/arkansas-reporter/2017/12/01/onefaith-based-group-recruits-almost-half-of-foster-homes-inarkansas?oid=12248165.
10

In contracting with the City of Philadelphia for the provision of
public services, CSS must abide by the fundamental principle that
the liberty protected by the Fifth and Fourteenth Amendments
prohibits the government and its agents from denying equal pro-

11

21
B. Petitioners’ argument undermines rather

than promotes religious liberty, by
allowing religious organizations to
discriminate against individuals on the
basis of their religion.
Finally, accepting Petitioners’ claimed constitutional right for CSS to opt out of non-discrimination
requirements that conflict with its faith would undermine, rather than promote, religious liberty, for two
reasons.
First, the logical outcome of such a holding is that
religious organizations that contract to administer
government programs (like the City’s foster program)
would be able to discriminate against members of other
religions in deciding whether to allow them access to
such benefits. To be clear, CSS does not presently have
a religious objection to certifying families of different
faiths or non-faith (though as explained below, see infra, page 25, CSS originally did have a clergy letter requirement that effectively barred non-religious couples
from being certified). But other religious organizations
that provide foster services under government contracts do engage in precisely that kind of religious discrimination against putative foster parents, as detailed
below.
The nature of the exemption that Petitioners
seek—the right for CSS to opt out of providing government-sponsored services to particular categories of
individuals on the basis of the organization’s religious
beliefs—will necessarily sanction religious discrimination as well as sexual orientation discrimination, since
a different organization may well have sincere relitection of the laws to any person. See United States v. Windsor,
570 U.S. 744, 774 (2013).

22
gious objections to certifying a foster couple that follows a different religion than the organization, or to
certifying a couple that is inter-faith, or that is atheist.
Shutting out Americans from government-funded
programs like this one on the basis of their religious
beliefs runs afoul of core First Amendment principles,
and of the basic notion that all Americans—no matter
their religious creed—should be free to exercise the
same rights and to enjoy the same benefits as their fellow Americans. See, e.g., Mitchell v. Helms, 530 U.S.
793, 828 (2000) (collecting “decisions that have prohibited governments from discriminating in the distribution of public benefits based upon religious status or
sincerity.”).
Second, requiring the City to grant such an exemption is likewise fundamentally incompatible with another core First Amendment principle: that the government must not favor any particular religion, and
that, particularly when it comes to providing government benefits, the government must treat all individuals equally no matter what religious beliefs (if any at
all) they hold. See, e.g., McDaniel v. Paty, 435 U.S.
618, 639 (1978) (the “Government may not use religion
as a basis of classification for the imposition of duties,
penalties, privileges or benefits.”) (Brennan, J., concurring in judgment); Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2025 (2017) (discrimination on the basis of religion “is odious to our
Constitution.”).

23
The proposed exemption would allow
religious organizations that contract
with the government to discriminate
against members of the public on the
basis of religion.
Amici do not question that Petitioners hold a genuine religious belief that marriage is a union between a
man and a woman only. Amici also do not doubt that
Petitioners believe that those religious beliefs preclude
CSS from certifying a same-sex married couple as foster parents.
But if CSS does have sincere objections to participating in the City’s tax-funded program that conditions
receipt of government funds on CSS’ compliance with
the City’s non-discrimination requirements, the simple
solution is for CSS not to provide foster care services
on the City’s behalf. Indeed, that is what this Court
has consistently held in the past, including in cases
where the conditions placed on government funds
raised First Amendment concerns in particular. See,
e.g., Alliance for Open Society Int’l, 570 U.S. at 214 (“As
a general matter, if a party objects to a condition on
the receipt of federal funding, its recourse is to decline
the funds. This remains true when the objection is that
a condition may affect the recipient’s exercise of its First
Amendment rights.”) (emphasis added); Regan v. Taxation With Representation of Wash., 461 U.S. 540, 546
(1983) (rejecting the “notion that First Amendment
rights are somehow not fully realized unless they are
subsidized by the State”) (internal quotation marks
omitted). And there is all the more reason to apply
that settled precedent in this case, given legitimate
concerns that allowing CSS to opt out of providing services to same-sex Philadelphia taxpayer couples will
put those couples in the unenviable position of funding
1.

24
the City’s foster program with their tax dollars, even as
they are excluded from accessing that program through
CSS. Cf. Christian Legal Soc’y v. Martinez, 561 U.S.
661, 668, 690 (2010) (finding a public school’s concern
that student clubs that were financially supported by
mandatory student activity funds would not exclude
any student on discriminatory grounds to be “reasonable,” because doing so “ensures that no * * * student is
forced to fund a group that would reject her as a member”); Norwood v. Harrison, 413 U.S. 455, 463 (1973)
(“[t]hat the Constitution may compel toleration of private discrimination in some circumstances does not
mean that it requires state support for such discrimination.”).
Rather than follow this settled precedent, however,
Petitioners urge this Court to adopt a new and “highly
unusual” solution to this problem. Pet. App. 25a n.8.
Specifically, Petitioners argue that to accommodate
their religious beliefs, the City should be required to
enter into a new public services contract with CSS, free
of the City’s anti-discrimination requirement. Ibid.
Setting aside the fact that there is no need for the
Court to blaze new trails in its First Amendment jurisprudence in light of precedent like Alliance for Open
Society International, the Court should decline Petitioners’ request, because the solution that Petitioners
propose harms rather than promotes religious liberty.
Petitioners seek a new First Amendment right: for
a religious organization to be able to selectively refuse
to provide services to members of certain groups under
a government tax-funded program, when to do otherwise would require it to “speak and act” against its religious beliefs. Pet. Br. 17. Recognizing this right
means that religious organizations would be able to
discriminate against individuals on the basis of their

25
religion, so long as the organization can legitimately
say that to do otherwise would require it speak and act
against its religious beliefs. Consider, for instance, a
Baptist organization that contracts with the government to provide foster services and that has a sincere
religious belief against certifying a non-Baptist couple
as foster parents. Or consider a Catholic organization
that sincerely believes that a foster child is best raised
by Catholic parents, or that a foster child should not be
raised by atheist parents, and thus refuses—again, on
the basis of those sincerely-held religious beliefs—to
certify non-Catholics or atheists as foster parents. If
Petitioners prevail in their request for the right to turn
away same-sex couples in Philadelphia from the City’s
foster services program solely because Petitioners believe that certifying such couples as foster parents runs
counter to CSS’ religious beliefs, there is nothing to
prohibit a different religious organization in some other city from turning away prospective foster parents
solely because those parents hold religious beliefs that
are different than those of the religious organization.
This kind of religious discrimination is by no
means a purely hypothetical concern. In fact, as part
of the application process, CSS previously required putative foster parents to provide a letter from the clergy
that attested to their religious observance; applicants
who did not provide such a letter would not be certified. Pet. App. 55a n.4, JA215-216, JA 715. During litigation, CSS told the court below that it would drop
that requirement. Ibid. But if Petitioners prevail, CSS
may well resume this practice, which would effectively
exclude all non-religious applicants who cannot provide
such a letter.
And creating this new First Amendment right that
Petitioners seek will have consequences beyond this

26
case as well. A number of religious organizations that
enter into government contracts to provide foster services—including large organizations that are responsible for a significant portion of foster placement services
in their locales—do engage in precisely this kind of religious discrimination already, by refusing to provide
their services to families that do not share the organization’s religious views. See Maddonna v. United
States Dept. of Health and Human Services, et al., No.
6:19-cv-3551, Dkt. 43 (D. S.C. Aug. 10, 2020), at 1, 5-7
(addressing a challenge by a putative foster parent to
the foster placement practices of Miracle Hill Ministries, “a faith-based ministry” and “the largest CPA
[child placement agency] in both the state [South Carolina] and the upstate South Carolina region,” where
plaintiff alleged that Miracle Hill “receives government
funding” but “refuse[d] to provide services as a licensed
child-placement agency to families who did not adhere
to its evangelical Christian beliefs and those that did
not attend Miracle Hill-approved Christian churches,”
including plaintiff, a practicing Catholic). Indeed, Miracle Hill Ministries to this day makes clear that it will
not place children with foster parents unless those
parents “follow[] * * * Jesus Christ” and “agree in belief
and practice with [Ministry Hill’s] doctrinal statement.” Foster Care Inquiry Form: Agreement with
Doctrinal Statement, Miracle Hill Ministries, available
at https://perma.cc/VL2Q-N8ZF (“As an evangelical
Christian foster care agency, we believe foster parents
are in a position of spiritual influence over the children
in their homes. Therefore, we require that foster parents who partner with us be followers of Jesus Christ,
be active in and accountable to a Christian church, and
agree in belief and practice with our doctrinal statement.”) (emphasis added).

27
Amici respect religious views like those held by
Miracle Hill Ministries and by Petitioners here. But
amici strongly believe that allowing organizations to
obtain exemptions from government contracts on the
basis of their religious beliefs will lead to the unacceptable result of those organizations discriminating
against Americans on the basis of their religious beliefs, thus depriving individuals of the opportunity to
live to their fullest potential regardless of their personal beliefs and characteristics. And particularly given
the Court’s long-standing (and appropriate) reluctance
for the judiciary to evaluate or second-guess whether a
particular set of religious beliefs by a particular organization is indeed significant, the potential here for religious-based discrimination is clear—since courts
should not be in the business of probing whether a specific organization that contracts with the government
believes that its religious beliefs preclude it from
providing services to certain groups of individuals who
do not share that organization’s beliefs. See, e.g.,
Mitchell, 530 U.S. at 828 (finding a proposed “inquiry
into the recipient’s religious views * * * offensive” and
“profoundly troubling,” and noting that “[i]t is well established * * * that courts should refrain from trolling
through a person’s or institution’s religious beliefs.”)
(plurality opinion); Hernandez v. Commissioner, 490
U.S. 680, 699 (1989) (“It is not within the judicial ken
to question the centrality of particular beliefs or practices to a faith, or the validity of particular litigants’
interpretations of those creeds.”); Smith, 494 U.S. at
887 (“Judging the centrality of different religious practices is akin to the unacceptable ‘business of evaluating
the relative merits of differing religious claims.’”) (citation omitted).
In short, the Court should decline Petitioners’ invitation to create an exemption that would allow a reli-

28
gious organization that enters into a government contract to provide tax-funded services to deny those services to certain individuals on the basis of the organization’s religious beliefs.
2.

The proposed exemption will result in the
government favoring particular religions
over others.

Requiring the City to grant the exemption that Petitioners seek would also run counter to another
longstanding First Amendment principle: that the government must not favor any particular religion and
that the government must treat all individuals equally
no matter what religious beliefs (if any at all) they
hold. See, e.g., Espinoza, 140 S. Ct. at 2255 (a state
“cannot exclude individual Catholics, Lutherans, Mohammedans, Baptists, Jews, Methodists, Nonbelievers, Presbyterians, or the members of any other
faith, because of their faith, or lack of it, from receiving”
public benefits) (quoting Everson v. Board of Ed. of
Ewing, 330 U.S. 1, 16 (1947)) (emphasis in Espinoza).
This second point is inextricably tied to the first.
The foster services that Petitioners contracted to provide are ultimately a taxpayer-funded government
benefit. The exemption that Petitioners seek would allow it to deny that government benefit to certain individuals on the basis of CSS’ religious beliefs. And although CSS itself does not discriminate between individuals who share CSS’ religious beliefs versus those
who do not in deciding whether to deny those benefits,
other religious organizations (like South Carolina’s
Miracle Hills Ministries) unquestionably do—and the
exemption that Petitioners seek here would apply with
full force to the discriminatory practices of those other
organizations. Thus, under Petitioners’ proposed out-

29
come, some individuals will be denied a government
benefit solely on the basis of their religion.
That presents an intolerable conflict with the wellsettled principle that the “government may not use religion as a basis of classification for the imposition of
duties, penalties, privileges or benefits.” McDaniel,
435 U.S. at 639; cf. Trinity Lutheran Church, 137 S. Ct.
at 2025 (excluding a church “from a public benefit for
which it is otherwise qualified, solely because it is a
church, is odious to our Constitution * * * and cannot
stand.”). Under Petitioners’ proposal, some individuals
would receive a government benefit like foster placement services because their religious beliefs happen to
align with those of the placement agency; other individuals would be denied that same benefit because
their religious beliefs are different. Tying the receipt
of government benefits to a person’s religion is anathema to this Court’s First Amendment jurisprudence.
Finally, it is no answer to say (as Petitioners seem
to suggest) that the situation here is somehow different
because it is not the government itself that denies the
benefit to an individual—and rather, the denial here is
one step removed since it is done by an organization
with whom the government contracts. In reality, that
is no distinction at all. If, say, a Jewish couple is
barred from becoming foster parents solely because
they do not share the Christian views of a religious
placement agency, it surely would be cold comfort for
them to learn that their city did not deny this benefit
directly, and that instead this benefit was denied by an
entity with whom the city contracted to provide those
government benefits. No one would argue that the
government itself could pick and choose religious favorites in deciding who can access taxpayer-funded public
benefits. A private organization that contracts with

30
the government to administer those benefits should not
be able to engage in that kind of discrimination either.
CONCLUSION

The Court should affirm the judgment below.
Respectfully submitted.
GREGORY FOSHEIM
BRIAN JONES
MICHAEL WEAVER
McDermott
Will & Emery LLP
444 W. Lake St.
Chicago, IL 60606
LISA GERSON
LISA LINSKY
SHU-PING SHEN
DMITRIY TISHYEVICH
McDermott
Will & Emery LLP
340 Madison Ave
New York, NY 10173

JAMES KIM
Counsel of Record
MICHAEL STANEK
McDermott
Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
jakim@mwe.com
ADRIANA FORTUNE
McDermott
Will & Emery LLP
200 Clarendon St.
Boston, MA 02116

Counsel for Amici Curiae

APPENDIX

1a
APPENDIX

Amici curiae, whose affiliations are listed for identification purposes only, are as follows.
Organizations
•

Conservatives Against Discrimination
(https://www.freedomforallamericans.org/conserv
atives-against-discrimination/)
Republican Legislators, Elected Officials, and
Leaders

•
•
•

•

•

•
•
•
•

Vance Aloupis, Jr., Member of the Florida House
of Representatives, 115th District, 2018-Present
Michael Berlucchi, City Council, Virginia Beach,
2019-Present
Michael N. “Mike” Callton, Member of the Michigan House of Representatives, 87th District, 20112016
Craig Cates, Monroe County Commissioner, District 1, 2019-Present, and Mayor of Key West,
2009-2018
Charles Wesley “Chuck” Clemons, Sr., Member
of the Florida House of Representatives, 21st District, 2016-Present
Cynthia H. Coffman, Colorado Attorney General,
2015-2019
Jordan Cunningham, Member of the California
State Assembly, 35th District, 2016-Present
Carlos Curbelo, United States Representative,
Florida, 26th District, 2015-2019
Sarah Davis, Member of the Texas House of Representatives, 134th District, 2011-Present

2a
•

•
•
•

•

•
•

•
•

•
•

•

Heather Fitzenhagen, Member of the Florida
House of Representatives, 78th District, 2012Present
J. John Fluharty, Executive Director of the Republican Party of Delaware, 2012-2015
Angie Gallo, School Board Member, District 1,
Orange County Public Schools, 2018-present
Betty I. Gay, Member of the New Hampshire
House of Representatives, Rockingham District 8,
2016-Present
Sheila Harrington, Member of the Massachusetts House of Representatives, 1st Middlesex District, 2011-Present
Daniel E. Innis, Member of the New Hampshire
Senate, 24th District, 2016-2018
Jason Janvrin, Member of the New Hampshire
House of Representatives, Rockingham District 37,
2018-Present
Fred Karger, United States Republican Presidential Candidate, 2012
Aaron Kaufer, Member of the Pennsylvania
House of Representatives, 120th District, 2015Present
Sam H. Killebrew, Member of the Florida House
of Representatives, 41st District, 2016-Present
John W. “Jack” Lyle Jr., Member of RI House of
Representatives, District 46, 2018- Present; Member Rhode Island State Senate 1980-1986 and
1990-1994
Jennifer Nassour, Co-Founder & President at
Pocketbook Project, Inc; Former CEO, ReflectUS;
Former Chair, MassGOP

3a
•
•

•

•
•
•
•
•
•
•

•

•
•
•

Jess Olson, Member of the South Dakota House
of Representatives, 34th District, 2019-Present
Casey Pick, Former Programs Director of Log
Cabin Republicans and Legislative Counsel to
American Unity Fund
René “Coach P” Plasencia, Member of the Florida House of Representatives, 50th District, 2014Present
Holly Raschein, Member of the Florida House of
Representatives, 120th District, 2012-Present
John Reagan, Member of the New Hampshire
Senate, 17th District, 2013-Present
Ileana Ros-Lehtinen, United States Representative, Florida, 27th District, 1989-2019
Claudine Schneider, United States Representative, Rhode Island, 2nd District, 1981-1991
Christopher Shays, United States Representative, Connecticut, 4th District, 1987-2009
Alan K. Simpson, Member of the United States
Senate from Wyoming, 1979-1997
Wendi J. Thomas, Member of the Pennsylvania
House of Representatives, 178th District, 2018Present
Kathleen “KC” Tomlinson, Member of the
Pennsylvania House of Representatives, 18th District, 2020-Present
Stephen H. Urquhart, Member of the Utah Senate, 29th District, 2009-2016
Jill Holtzman Vogel, Member of the Virginia
Senate, 27th District, 2008-Present
Dan Zwonitzer, Member of the Wyoming House
of Representatives, 43rd District, 2005-Present

